        OFFICE OF
   INSPECTOR GENERAL




Semiannual Report to Congress
April 1, 2003 – September 30, 2003


   Federal Election Commission
   999 E Street, N.W., Suite 940
     Washington, DC 20463

        November 2003
                               TABLE OF CONTENTS




EXECUTIVE SUMMARY……………………………………………………………………………1

FEDERAL ELECTION COMMISSION………………………………………………………...7

AUDIT………………………………………………………………………………………………………9

AUDIT FOLLOW-UP………………………………………………………………………………...12

HOTLINE COMPLAINT…………………………………………………………………………….14

ADDITIONAL OFFICE OF INSPECTOR GENERAL
ACTIVITY…………………………………………………………………………………………………16

ECIE AND PCIE ACTIVITY………………………………………………………………………..20

REPORTING REQUIREMENTS…………………………………………………………………22

TABLE I - QUESTIONED COSTS……………………………………………………………….23

TABLE II - FUNDS PUT TO BETTER USE………………………………………………….24

TABLE III - SUMMARY OF AUDIT REPORTS WITH
             CORRECTIVE ACTIONS OUTSTANDING
             FOR MORE THAN SIX MONTHS………………………………………….25

OIG STRATEGIC PLAN…………………………………………………………………………….26

CONTACTING THE OFFICE OF INSPECTOR
GENERAL………………………………………………………………………………………………..27




April 1, 2003 – September 30, 2003
                              EXECUTIVE SUMMARY




        In accordance with the requirements of the Inspector General Act of 1978,

as amended, I am pleased to submit the Federal Election Commission (FEC),

Office of Inspector General (OIG) Semiannual Report to Congress covering the

period April 1, 2003 through September 30, 2003.



        The OIG’s mission is to assist in protecting the Agency from fraud, waste,

and abuse and to remain current on matters affecting the IG community. To

accomplish this mission we have relied on audits and investigations conducted by

the OIG staff in an effort to improve the accountability and performance of the

Federal Election Commission. The Executive Summary recaps the major

accomplishments regarding the operations and activities that are relevant to the

Federal Election Commission, Office of Inspector General.



        During a previous reporting period, the Office of Inspector General

initiated the audit entitled Audit of the FEC’s Public Disclosure Process –

(OIG-02-03). The audit has continued into this reporting period. The purpose

of the audit is to review how the Commission carries out its disclosure

responsibilities and how the use of technology and controls to monitor and

remedy reporting discrepancies can be improved. The objectives of the audit are

to: 1) determine the extent, if any, of disclosure differences between candidate

contributions reported by political committees and related committee

April 1, 2003 – September 30, 2003                                            Page 1
contributions reported received by candidates; and 2) determine whether an

adequate process is in place to remedy reporting discrepancies.



        The agency’s public disclosure system is a comprehensive structure. IG

staff members have been involved in various meetings and discussions pertaining

to the entire public disclosure process during this reporting period. The auditors

assigned to this project finalized the process description for the Data Coding and

Entry Branch. A computer spreadsheet containing campaign finance data was

created to compare differences between contributions reported received by

candidates from Political Action Committee’s (PACs), and contributions reported

by PACS given to candidates.



        The analysis of annual legislative recommendations relating to monthly

filing by principle campaign committees has been documented and the

information was summarized and included in the work papers. The OIG

produced flowcharts to illustrate the processing and data entry functions of the

disclosure process. The OIG also assembled and reviewed FEC information

technology (IT) initiatives pertaining to the public disclosure of campaign related

information. In addition, the OIG has researched and reviewed suggested

Federal Election Campaign Act (FECA) amendments pertaining to the

comparison of political committee and candidate data. More information

regarding this audit can be found on page 9, the section entitled Audit.




April 1, 2003 – September 30, 2003                                            Page 2
        The OIG commenced a follow-up assessment on the audit entitled

Agency Controls for Governing the Process for Procurement of

Vendor Training Services (OIG-00-01). Although this audit originated in a

prior reporting period, follow-up work was conducted during this period to

determine whether corrective action had been taken by Management to address

the outstanding audit findings and recommendations included in the original

audit report.



        The OIG conducted this audit, which was released September 2000, to

asses the effectiveness and efficiency of management controls governing the

procedures for the procurement of training services from outside vendors.

Management generally agreed with the findings and recommendations made in

the report. However, four recommendations remain outstanding. An audit

recommendation is resolved when agency management and the OIG reach an

agreement on a firm plan of action to correct reported weaknesses. The OIG

closes audit recommendations when it determines that corrective actions have

been completed by the agency. For additional information see page 12, the Audit

Follow-up section of this report.



        The Inspector General Act of 1978, as amended, provides that the

Inspector General may receive and investigate complaints or information

concerning the possible existence of an activity constituting a violation of law,

rules or regulations, mismanagement, waste of funds or abuse of authority. The

FEC/OIG hotline was originally established to enable direct and confidential

April 1, 2003 – September 30, 2003                                             Page 3
contact with the OIG. Employees and members of the public with information on

fraud, waste, and abuse are encouraged to contact the Office of Inspector

General. All information received, regardless of the method used, is handled in a

prompt and professional manner.



        During the past reporting period the OIG received a hotline complaint

from an individual against an agency employee. According to the OIG’s

Procedures for Processing Hotline Calls, a preliminary inquiry is conducted on

allegations raised in a hotline complaint. If it is determined that a full

investigation is necessary, the hotline complaint file is closed and a separate

investigative file is opened to document the investigation conducted.



        Prior to the close of the previous reporting period, a preliminary inquiry

was initiated as a result of the allegations made by the complainant. After

completing the preliminary inquiry, and based on the information received and

reviewed, the OIG concluded the allegation did not warrant opening an

investigation. Therefore, the OIG considers the matter closed. Starting on page

14, in the section entitled Hotline Complaint, more information can be found

regarding this allegation.



        The following section is intended to provide an overview summarizing the

general activities of the Office of Inspector General for the six (6) month period

ending 09/30/03. The section entitled Additional Office of Inspector



April 1, 2003 – September 30, 2003                                                Page 4
General Activities, found on page 16, contains more detailed information

pertaining to the additional activities of the OIG.



    •   During this reporting period, the OIG has been preparing to meet the

        challenges associated with the Accountability of Tax Dollars Act of 2002.

        The Act requires OIGs to audit their agencies financial statements. The

        OIG plans to contract this function out and because the OIG has never

        hired a contractor to perform audit services for the office, an e-mail survey

        regarding audit costs was created and sent to the members of the

        Executive Council on Integrity and Efficiency (ECIE). The survey included

        questions regarding the cost of their offices’ most recent financial

        statement audit, or the amount budgeted for such an audit if an audit had

        not been done before. The IG office received responses from a number of

        OIGs. The results were summarized and sent, not only to the ECIE

        committee members who responded to the survey, but to the Office of

        Management and Budget who requested a copy of the results.



    •   The OIG received and responded to an unsolicited, commercial SPAM e-

        mail forwarded by FEC management. Due to the contents contained in the

        e-mail, management requested that the OIG examine the SPAM. The

        SPAM, allegedly sent on behalf of the Director of Contracts and Finance

        Allocations for the Federal Ministry of Works and Housing in Nigeria,

        requested information from the FEC employee to assist with investments

        in estates or land in the United States. The auditor assigned to this

April 1, 2003 – September 30, 2003                                              Page 5
        project, researched the issue and provided information to management on

        how to handle the SPAM message.



    •   The Inspector General, as a member of the ECIE, maintains active

        membership with the Council and its associated activities. During this

        time frame, the IG served on the ECIE awards panel. The awards panel is

        responsible for recommending awards for outstanding OIG employees to

        be presented at the annual October PCIE/ECIE awards ceremony held in

        Washington, DC.



    •   The FEC Staff Director consulted with the Inspector General on an issue

        regarding appropriated funds. The OIG contacted the ECIE community to

        obtain feedback on the permissibility of using appropriated funds to

        subsidize the cost of a government sponsored employee moral and/or

        welfare activity. The OIG received several helpful responses. After further

        review, the information was summarized and transmitted to the Staff

        Director.




April 1, 2003 – September 30, 2003                                             Page 6
               THE FEDERAL ELECTION COMMISSION

        The Federal Election Commission is an independent, regulatory agency

responsible for administering and implementing the Federal Election Campaign

Act (FECA). The FEC is governed by a six member commission who are

appointed for six year terms by the President of the United States, with the advice

and consent of the Senate. The FECA likewise established the positions of Staff

Director and General Counsel, who are appointed by the Commissioners.



        The Office of Inspector General remains dedicated to assisting the Federal

Election Commission operate more efficiently and effectively by identifying ways

to improve Agency programs and operations. We have received, and appreciate,

the cooperation of the FEC’s management and employees. Without it, the work

of this office as an agent dedicated to strengthening the management and

integrity of FEC programs and operation, would be more difficult.




                     OFFICE OF INSPECTOR GENERAL


        The Inspector General Act of 1978 (P.L. 100-504), as amended in 1988,

states that the Inspector General is responsible for: 1) conducting and

supervising audits and investigations relating to the Federal Election

Commission’s programs and operations; 2) detecting and preventing fraud,

waste, and abuse of agency programs and operations while providing leadership

April 1, 2003 – September 30, 2003                                           Page 7
and coordination; 3) recommending policies designed to promote economy,

efficiency, and effectiveness of the establishment; and 4) keeping the

Commissioners and Congress fully and currently informed about problems and

deficiencies in FEC agency programs and operations, and the need for corrective

action.



          Including the Inspector General, Lynne A. McFarland, the OIG staff

consists of four employees. Two are auditors, and one is the Special Assistant to

the Inspector General. The FEC’s IG is independent and subject only to the

general supervision of the Commissioners of the Federal Election Commission.

The Inspector General staff has demonstrated the ability to gather and evaluate

factual evidence. The evidence can then be effectively used to provide the basis

for recommending appropriate actions to improve agency operations. The OIG

remains dedicated to assisting the FEC operate more efficiently and effectively

and we are committed to maintaining a positive relationship with management

officials.




April 1, 2003 – September 30, 2003                                             Page 8
                                         AUDIT


TITLE:                           Audit of the FEC’s Public Disclosure Process

ASSIGNMENT #:                    OIG – 02-03

RELEASE DATE:                    In Progress

PURPOSE:                         Our purpose for conducting the audit is to review how

the Commission carries out its disclosure responsibilities and how the use of

technology and controls to monitor and remedy reporting discrepancies can be

improved. The two major objectives of the audit are to: 1) determine the extent,

if any, of disclosure differences between candidate contributions reported by

political committees and related committee contributions reported received by

candidates; and 2) determine whether an adequate process is in place to remedy

any reporting discrepancies.



        The OIG initiated this audit during a previous reporting period. The FEC

public disclosure system is a comprehensive structure. IG staff members have

been involved in various meetings and discussions in order to gain a better

understanding of the entire public disclosure process. The auditors assigned to

this project finalized the process description for the Data Coding and Entry

Branch. A computer spreadsheet containing campaign finance data was created

to compare differences between contributions reported received by candidates

from PACs, and contributions reported by PACs given to candidates. When



April 1, 2003 – September 30, 2003                                               Page 9
differences were found several candidates were randomly selected to further

investigate the cause(s) of the differences.



        The “E” index (Candidate Index of Supporting Documents) which is a

detailed list of receipts and disbursements for the candidates, was reviewed to

assist in determining the basis for the differences. Once the documents were

examined, the pertinent information was summarized and documented in the

work papers. The OIG assembled and reviewed FEC information technology (IT)

initiatives as they pertain to public disclosure of campaign related information.

To identify required reporting policies and schedules, the IG staff examined

current FEC regulations and campaign finance guides.



        Further work involved in executing this audit included researching agency

policies for guidance and/or instruction on the political committees’ recording

and reporting of returned contributions by candidates. Federal regulations and

FEC campaign guides regarding the legal and regulatory requirements for filing

amended campaign finance disclosure reports were also reviewed and

documented.



        The IG staff obtained a January 2003 reengineering study, done by an

outside contractor. The study, which documents the processing of electronic and

paper campaign disclosure reports by the Reports and Analysis Division, was

reviewed and the pertinent information was documented and included in the

audit work papers.

April 1, 2003 – September 30, 2003                                           Page 10
        To prepare for tracing sample transactions through the campaign

disclosure process and database, the OIG obtained and reviewed disclosure

process diagrams and charts. Sample campaign disclosure forms were also

reviewed.




April 1, 2003 – September 30, 2003                                          Page 11
                                 AUDIT FOLLOW-UP



TITLE:                           Agency Controls Governing the Process for
                                 Procurement of Vendor Training Services


ASSIGNMENT #:                    OIG – 00-01

RELEASE DATE:                    September, 2000
 (audit report)

WEBSITE ADDRESS:                 http://www.fec.gov/fecig/training.pdf

PURPOSE:                         During the course of this reporting period, the OIG

continued to monitor the status of the four outstanding recommendations

contained in audit report.



        The IG’s office commenced a follow-up assessment to determine whether

management had taken corrective action to address the outstanding audit

findings and recommendations included in the original report. The audit had

one major objective – to assess the effectiveness and efficiency of management

controls governing the procedures for the procurement of training services from

outside vendors.



        During a previous reporting period, management presented the OIG with

draft procedures as it relates to the training audit. The OIG examined the

information and provided management with several comments and suggestions

pertaining to the draft procedures.

April 1, 2003 – September 30, 2003                                               Page 12
        Work associated with the follow-up included contacting the Personnel

office to find out if they were close to releasing the final version of the training

procedures that would result in the closure of the four outstanding audit

recommendations. During the course of this reporting period, the Personnel

Director departed the Federal Election Commission. Unfortunately, the final

version of the training procedures was not released prior to the end of this

reporting period.




April 1, 2003 – September 30, 2003                                               Page 13
                              HOTLINE COMPLAINT


        The Inspector General Act of 1978, as amended, provides that the

Inspector General may receive and investigate complaints or information

concerning the possible existence of an activity constituting a violation of law,

rules or regulations, mismanagement, waste of funds or abuse of authority.



        The FEC/OIG hotline was originally established to enable direct and

confidential contact with the OIG. Employees and members of the public with

information on fraud, waste, and abuse are encouraged to contact the Office of

Inspector General. This can be done by calling, visiting, e-mailing or sending

information to our office via U.S. or interoffice mail. All information received,

regardless of the method used, is handled in a prompt and professional manner.



        During the past reporting period the OIG received a hotline complaint

from an individual submitting a complaint regarding an agency employee.

According to the OIG’s Procedures for Processing Hotline Calls, a preliminary

inquiry is conducted on any allegations reported to the OIG. If it is determined

that a full investigation is necessary, the hotline complaint file is closed and a

separate investigative file is opened to document the investigation conducted.



        As mentioned in the previous semiannual report, a preliminary inquiry

was initiated as a result of the allegations made by the complainant. In order to

April 1, 2003 – September 30, 2003                                              Page 14
assess the credibility of the allegations, the OIG spoke with the division

responsible for the FEC’s transit benefit program. The transit benefit program

provides eligible Agency employees with Metrocheck transit passes to encourage

the utilization of the mass transit system. The OIG obtained the transit subsidy

eligibility list and performed a reconciliation of the Metrocheck distribution,

which covered a seventeen (17) month period. This included a breakdown of the

transit benefits purchased, distributed, and remaining at the end of each of the

seventeen months.



        The Monthly Purchase Request memorandums, which document the

FEC’s purchase of the transit benefit, were also obtained and reviewed. In an

effort to identify any irregularities, the OIG created a Microsoft Excel spreadsheet

to account for the Metrochecks purchased and distributed.



        After completing the preliminary inquiry, and based on the information

received and reviewed, the OIG did not detect any irregularities that would

substantiate the allegation. The OIG concluded the allegation did not warrant

opening an investigation and closed the hotline file.




April 1, 2003 – September 30, 2003                                            Page 15
 ADDITIONAL OFFICE OF INSPECTOR GENERAL ACTIVITY


        All legislation, as compiled by the Commission’s Congressional Affairs

Office, was reviewed by the Inspector General, as required by the Inspector

General Act of 1978, as amended. The Inspector General reviews and comments,

when appropriate, on all legislation provided by the PCIE/ECIE Legislative

Committee. In addition, the Inspector General routinely reads all Commission

agenda items and attends Finance Committee meetings.



            •   On November 7, 2002, the President signed into Public Law 107-

                289, The Accountability of Tax Dollars Act of 2002. The Act

                requires numerous Federal entities to have their financial

                statements audited annually by the agency Inspector General. The

                OIG has been preparing to meet the requirements associated with

                the Accountability of Tax Dollars Act of 2002. During this

                reporting period, the IG office contacted several OIGs to request a

                copy of their “Statement of Work” used to procure an independent

                public accounting (IPA) firm. To further prepare for the financial

                statement audit, an e-mail survey regarding audit cost was created

                and sent to the members of the ECIE. The survey included

                questions regarding the cost of their offices most recent financial

                statement audit, or the amount budgeted for such an audit if one

                had not been previously done. The IG office received responses


April 1, 2003 – September 30, 2003                                             Page 16
                from a number of OIGs. The results were summarized and sent to

                the ECIE members who responded to the survey. The Office of

                Management and Budget also requested a copy of the results.



            •   The IG office received and responded to an unsolicited commercial

                SPAM e-mail forwarded to the OIG by FEC management. Due to

                the nature of the contents contained in the e-mail, management

                requested the OIG examine the SPAM. The SPAM, purported to be

                sent on behalf of the Director of Contracts and Finance Allocations

                from the Federal Ministry of Works and Housing in Nigeria,

                requested bank account information from the FEC employee to

                assist with investments in estates or land in the United States. The

                OIG researched the issue and provided information to management

                on how to handle the SPAM message.



            •   As a member of the ECIE, the Inspector General maintains active

                membership with the Council and its associated activities. During

                the course of this reporting period, the IG served on the ECIE

                awards panel. The awards panel is responsible for recommending

                awards for outstanding OIG employees to be presented at the

                annual PCIE/ECIE awards ceremony.



            •   The FEC Staff Director consulted with the IG on an issue regarding

                appropriated funds. The OIG contacted the ECIE community to

April 1, 2003 – September 30, 2003                                               Page 17
                obtain feedback on the permissibility of using appropriated funds to

                subsidize the cost of a government sponsored employee moral

                and/or welfare activity. The OIG received several helpful

                responses. After further review, the information was summarized

                and a memorandum outlining our observation of the circumstances

                was submitted to the Staff Director.



            •   The OIG received a telephone inquiry from an individual who

                alleged a foreign organization was encouraging foreigners to

                contribute money to assist in a Presidential candidate’s campaign.

                The caller provided a Website address that contained information

                about the organization encouraging contributions. The OIG

                advised the caller that the matter was out of the scope of the OIG’s

                mission, but the information was forwarded to the appropriate FEC

                office for further review.



            •   The OIG e-mail account received several inquiries during this time

                frame. One issue dealt with voter registration and another

                mentioned election fraud regarding electronic voting machines.

                After analyzing the information, the OIG forwarded both of the e-

                mails to the appropriate FEC division. In addition, the OIG also

                responded to other e-mails retrieved from the OIG’s e-mail account.

                The e-mails dealt with various issues such as whether or not the



April 1, 2003 – September 30, 2003                                             Page 18
                FEC/OIG employs special agents, as well as questions and concerns

                regarding election fraud and voter registration.




April 1, 2003 – September 30, 2003                                         Page 19
                            ECIE AND PCIE ACTIVITY


        The Executive Council on Integrity and Efficiency was established by

Executive Order on May 11, 1992. It consists of Designated Federal Entity

Inspectors General and representatives of the Office of Government Ethics, the

Office of Special Counsel, the Federal Bureau of Investigation and the Office of

Management and Budget.



        The Commission’s Inspector General is a member of the ECIE and has

provided input into a number of initiatives proposed by the Council and its

associated activities. The ECIE serves as a forum for the exchange of views for

the inspector general community. The ECIE identifies, reviews, and discusses

issues that are of interest to the IG community. For the period April 1, 2003

through September 30, 2003, the Inspector General (or staff) attended the

following training, programs, seminars and/or conferences:



        •   ECIE - Monthly Meetings

        •   ECIE – Liaison’s Meeting

        •   ECIE – Financial Statement Audit Network Meeting

        •   PCIE – Information Technology Roundtable Discussion

        •   PCIE/ECIE – Semiannual Reports Coordinators (SARC) Workgroup
            Meeting

        •   Association of Government Accountants – 52nd Annual Professional
            Development Conference: Managing Smarter for the Future

April 1, 2003 – September 30, 2003                                             Page 20
        •   Mastercard – Government Charge Card Forum

        •   Federal Audit Executive Counsel (FAEC) Conference – IG Act – The
            Next 25 Years

        •   Federal Audit Executive Council (FAEC) - Accelerated Financial
            Reporting Roundtable Discussion

        •   Department of Treasury – The Treasury Accelerated Financial
            Reporting – Lessons Learned Seminar

        •   Federal Deposit Insurance Corporation (FDIC) - Federal Information
            Security Management Act (FISMA) Meeting

        •   Association of Government Accountants (AGA) Conference – What to
            expect from a CFO Audit – Complying with the Requirements of the
            Accountability of Tax Dollars Act of 2002 (Accountability Act)

        •   Government Executive - 2003 Excellence in Government Conference

        •   Ernst & Young – Workshop on Estimation Techniques used for
            Financial Statement Audits

        •   General Accounting Office – Truth & Transparency: The Federal
            Government’s Financial Condition and Fiscal Outlook

        •   Northern Virginia Chapter of Red Cross – First Aid Certification
            Training

        •   Federal Election Commission – Administrative Liaison Meetings

        •   Federal Election Commission – Town Meeting on Emergency
            Planning

        •   Federal Election Commission – Emergency Evacuation Team Meeting




April 1, 2003 – September 30, 2003                                             Page 21
IG ACT                  REPORTING REQUIREMENTS                                            PAGE



Reporting requirements required by the Inspector General Act of 1978, as amended by
the Inspector General Act Amendments of 1988 are listed below:


Section 4(a)(2)         Review of Legislation--------------------------------------------16

Section 5(a)(1)         Significant Problems, Abuses, and
                        Deficiencies-----------------------------------------------------None

Section 5(a)(2)         Recommendations with Respect to
                        Significant Problems, Abuses, and
                        Deficiencies-----------------------------------------------------None

Section 5(a)(3)         Recommendations Included in Previous
                        Reports on Which Corrective Action Has
                        Not Been Completed-(Table III) -------------------------------25

Section 5(a)(4)         Matters Referred to Prosecutive
                        Authorities------------------------------------------------------None

Section 5(a)(5)         Summary of Instances Where Information
                        was Refused----------------------------------------------------None

Section 5(a)(7)         Summary of Significant Reports---------------------------------9

Section 5(a)(8)         Questioned and Unsupported Costs-(Table I)----------------23

Section 5(a)(9)         Recommendations that Funds be put
                        to Better Use (Table II)-----------------------------------------24

Section 5(a)(10)        Summary of Audit Reports issued before
                        the start of the Reporting Period for which
                        no Management Decision has been made------------------N/A

Section 5(a)(11)        Significant revised Management Decisions----------------N/A

Section 5(a)(12)        Management Decisions with which the
                        Inspector General is in Disagreement---------------------None




April 1, 2003 – September 30, 2003                                                        Page 22
                                          TABLE I

                   INSPECTOR GENERAL ISSUED REPORTS
                        WITH QUESTIONED COSTS

                                                    DOLLAR VALUE (in thousands)

                                                    QUESTIONED    UNSUPPORTED
                                         NUMBER        COSTS          COSTS



A. For which no management                0              0               [0]
   decision has been made by
   commencement of the reporting
   period


B. Which were issued during the           0              0              [0]
   reporting period

        Sub-Totals (A&B)                  0              0              [0]


C. For which a management                 0              0              [0]
   decision was made during
   the reporting period

        (i) Dollar value of disallowed    0              0              [0]
            costs

        (ii) Dollar value of costs        0              0              [0]
             not disallowed


D. For which no management                0              0              [0]
   decision has been made by the
   end of the reporting period


E. Reports for which no management        0              0              [0]
   decision was made within
   six months of issuance




April 1, 2003 – September 30, 2003                                            Page 23
                                          TABLE II

         INSPECTOR GENERAL ISSUED REPORTS WITH
     RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE



                                                     NUMBER   DOLLAR VALUE
                                                               (in thousands)



A.      For which no management                       0             0
        decision has been made by
        the commencement of the
        reporting period

B.      Which were issued during                      0             0
        the reporting period

C.      For which a management                        0             0
        decision was made during
        the reporting period

        (i)     dollar value of                       0             0
                recommendations
                were agreed to by
                management

                based on proposed                     0             0
                management action

                based on proposed                     0             0
                legislative action

        (ii)    dollar value of                       0             0
                recommendations
                that were not agreed
                to by management

D.      For which no management                       0             0
        decision has been made by
        the end of the reporting period

E.      Reports for which no                          0             0
        management decision
        was made within six months
        of issuance




April 1, 2003 – September 30, 2003                                          Page 24
                                             TABLE III

    SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS
        OUTSTANDING FOR MORE THAN SIX MONTHS



                                                          Recommendations


                                 Report          Issue
Report Title                     Number          Date    Number   Closed Open

Agency Controls                      00-01       09/00    7        3       4
Governing the Process
for Procurement of Vendor
Training Services




April 1, 2003 – September 30, 2003                                       Page 25
                                                                        FEC / OIG Strategic Plan
                                                           OIG Process: To develop and implement                            OIG Staff: To maintain a skilled and motivated
 OIG Products: To provide products and
                                                           processes, policies, and procedures to ensure                    work force in an environment that fosters
 services that promote positive change in
                                                           the most effective and appropriate use of OIG                    accountability, communications, teamwork, and
 FEC policies, programs, and operations.
                                                           resources in support of our people and products.                 personal and professional growth.


 Objective A: Deliver timely, high-quality                                                                                  Objective A: Attract and retain well-qualified,
 products and services that promote                                                                                         diverse and motivated employees.
 positive change.                                            Objective A: Maintain a dynamic strategic
                                                             planning process.                                              Strategy:
                                                                                                                            - develop and implement a comprehensive recruiting program
 Strategy:                                                                                                                  that attracts a broad population with the knowledge, skills,
 - establish common OIG standards for communicating          Strategy:
                                                                                                                            abilities, and expertise necessary to make meaningful
 results;                                                    - periodically review and update the strategic plan to
                                                                                                                            contributions to the OIG;
 - conduct quality assurance programs;                       address changing OIG and FEC priorities; and,
                                                                                                                            - assess employee satisfaction and develop strategies to address
 - solicit appropriate internal and external review and      - identify factors that influence organizational change and
                                                                                                                            employee concerns;
 comment;                                                    develop short and long term plans to address them.
                                                                                                                            - identify reasons for staff departures and develop plans to foster
 - comply with applicable statutory guidelines and                                                                          greater staff retention; and,
 standards;                                                                                                                 - adhere to EEO principles and strive to maintain a diverse work
 - set realistic and appropriate milestones.                                                                                force.

 Objective B: Address priority issues and
 concerns of the Commission, Congress,
                                                             Objective B: Plan and conduct cost-
 and Management.
                                                             effective work that address critical issues                    Objective B: Provide training and developmental
 Strategy:     Perform work that supports;                   and results in positive change.                                opportunities to employees.
 - Federal Election Commission and Congressional
 priorities;                                                 Strategy:                                                      Strategy:
 - National Performance Review objectives;                   - solicit FEC and Congressional input in planning OIG          - assess training needs in relation not only to employee but also
 - Strategic Management Initiative efforts;                  activities;                                                    office needs as well;
                                                             - develop internal planning mechanisms to support FEC          - ensure that Government Auditing Standards in relation to
 Focus OIG attention in the following areas of emphasis:     goals and priorities;                                          training are adhered to; and,
 - managing change;                                          - ensure that priorities of IG are effectively communicated;   - maintain a reporting system to ensure that educational
 - resource allocation in relation to policy objectives;     and,                                                           requirements are met.
 - delivery of client service;                               - identify specific targets for OIG review that are the most
 - causes of fraud and inefficiency; and,                    cost-effective
 - automation and communication.



                                                             Objective C: Identify customer needs and
                                                             provide products and services to meet
 Objective C: Follow-up and evaluate                         them.                                                          Objective C: Assess, recognize, and reward,
 results of OIG products and services to                                                                                    when possible, performance that contributes to
 assess their effectiveness in promoting                     Strategy:                                                      achieving the OIG mission.
 positive change.                                            - establish new customer feed back mechanisms;
                                                             - consider and evaluate customers feedback when                Strategy:
                                                             planning and developing products and services;
 Strategy:                                                   - respond to Congressional inquires and request for
                                                                                                                            - develop and articulate expectations for each employee's
 - Identify, as appropriate, lessons learned to improve                                                                     performance, including contributions in meeting the mission &
                                                             briefing and testimony;
 timeliness and quality; and,                                                                                               goals of the OIG; and,
                                                             - promote open exchange of ideas and information through
 - conduct follow-up reviews to determine if intended                                                                       - ensure that rewards, when possible, are given in recognition of
                                                             outreach and through use of e-mail; and,
 results have been achieved.                                                                                                exceptional employee performance.
                                                             - receive, evaluate, and respond, as appropriate, to
                                                             information received through the OIG hotline and other
                                                             sources.


 Objective D: Satisfy customers,                             Objective D: Implement efficient, effective,
 consistent with the independent nature of                                                                                  Objective D: Create and maintain a working
                                                             and consistent resolution and follow-up                        environment that promotes teamwork and
 the OIG.                                                    procedures.                                                    effective communication.
 Strategy:                                                   Strategy:
 - establish professional communication and interaction                                                                     Strategy:
                                                             - ensure that IG follow-up procedures are followed and that
 with customers to promote the open exchange of ideas;                                                                      - ensure that communications between employees is open; and,
                                                             management is aware of their role in the process; and,
 - incorporate customer feedback, as appropriate; and,                                                                      - provide employees with the tools and incentives they need to
                                                             - establish common OIG standards for terminology, date
 - be open to customer-generated solutions and                                                                              adequately perform their duties.
                                                             maintenance and communications.
 options.


                                                             Objective E: Establish a positive and
                                                             productive working environment.

                                                             Strategy:
                                                             - reengineer or streamline OIG procedures to achieve the
                                                             most effective use of resources; and,
                                                             - ensure that necessary technologies, evolving and
                                                             otherwise, are made available to staff as needed.



 Performance Measures: Determine the
 timeliness and quality of products and                      Performance Measures: An annual audit                          Performance Measures: All employees meet
 services; their effectiveness in promoting                  plan is issued; strategic plan is periodically                 the training requirements; all employees have
 positive change; and, reach agreement                       reviewed; and, necessary technology is                         performance standards; and, all employees meet
 with management on at least 90% of                          provided to staff to enable them to most                       the basic requirements for the position in which
 recommendations within six months of                        efficiently perform their duties.                              they were hired to perform.
 the report issue date.




April 1, 2003 – September 30, 2003                                                                                                                                       Page 26
    CONTACTING THE OFFICE OF INSPECTOR GENERAL



The success of the OIG mission to prevent fraud, waste, and abuse depends on
the cooperation of FEC employees (and the public). There are several ways to
report questionable activity.




        Call us at 202-694-1015 or toll-free 1-800-424-9530. A confidential or
        anonymous message can be left 24 hours a day/7 days a week.




        Write or visit us - we are located at:   Federal Election Commission
                                                 Office of Inspector General
                                                 999 E Street, N.W., Suite 940
                                                 Washington, DC 20463

                                       Mail is opened by OIG staff members only.




                         You can also contact us by e-mail at: oig@fec.gov.
                         Our Website address: http://www.fec.gov/fecig.htm.

Individuals may be subject to disciplinary or criminal action for knowingly
making a false complaint or providing false information.



April 1, 2003 – September 30, 2003                                            Page 27
